701 South China Lake Boulevard
P. O. Box 1209
Ridgecrest, CA 93556-1209
(760) 371-7000 or (800) 433-9727
FAX (760) 371-7079
Website: www.altaone.org

CREDIT LINE ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY
FEDERAL TRUTH-IN-LENDING DISCLOSURE STATEMENTS, VISA PLATINUM, VISA
PLATINUM REWARDS, VISA BUSINESS PLATINUM REWARDS AND VISA PLATINUM
SECURED AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF
YOUR VISA PLATINUM, VISA PLATINUM REWARDS, VISA BUSINESS PLATINUM
REWARDS AND VISA PLATINUM SECURED CREDIT CARDS, AND/OR ANY OTHER
ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT
CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR) VISA Platinum:
For Purchases

________%
______%

VISA Platinum Rewards:

VISA Business Platinum Rewards: ______%
VISA Platinum Secured:

______%

Annual Percentage Rate (APR) VISA Platinum: ______% introductory APR until December 31, 2016
For Balance Transfers
After that, Your APR will be ______%
VISA Platinum Rewards: ______% introductory APR until December 31, 2016
After that, Your APR will be ______%
VISA Business Platinum Rewards: ______% introductory APR until December 31, 2016
After that, Your APR will be ______%
VISA Platinum Secured: ______% introductory APR until December 31, 2016
After that, Your APR will be ______%
Annual Percentage Rate (APR)
For Cash Advances

VISA Platinum: ______%
VISA Platinum Rewards: ______%
VISA Business Platinum Rewards: ______%
VISA Platinum Secured: ______%
Signature Line of Credit ______%

Paying Interest

For VISA, We will not charge You interest on purchases if You pay Your entire balance
owed each month within 25 days of Your statement closing date. For all Feature
Categories, We will begin charging interest on cash advances and balance transfers on
the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http:www.consumerfinance.gov/learnmore.

Fees
Annual Fee

For VISA Platinum Secured, $30.00
SEE PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

Page 1 of 6

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

Fees (continued)
Transaction Fees

.
.

Balance Transfer
Foreign Transaction

3.00% of each transfer ($5.00 minimum)
1.00% of each U.S. Dollar transaction that occurs in a foreign country
0.80% of each foreign currency transaction in U.S. dollars

Penalty Fees

.

Over-the-Credit Limit

.

Late Payment

Except VISA Business Platinum Rewards, up to $25.00
For VISA Business Platinum Rewards, $25.00 per day
Except VISA Business Platinum Rewards and Signature Line of Credit, up to $25.00
For VISA Business Platinum Rewards and Signature Line of Credit, $25.00

How We Will Calculate Your Balance: We use a method called "daily balance." See Your Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
SEE PAGE 1 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

Page 2 of 6

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

In this Agreement, the reference to "We," "Us," "Our," and "Credit Union" mean ALTAONE FEDERAL CREDIT UNION. The words "You" and "Your" mean each person
accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA Platinum, VISA Platinum
Rewards, VISA Business Platinum Rewards and VISA Platinum Secured Credit Card issued to You by Us and any duplicates or renewals. "Convenience Checks" mean
the special Account access devices that We may provide for Your use from time to time.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein
constitute Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic
requests, advance request forms, vouchers, checks, charge slips, Convenience Checks, debit cards, ATM cards, Credit Cards, wire transfers, direct transfers and/or wire
transfers to specific payees identified by You, direct transfers to Your share/share draft or other Credit Union account and the like. Regardless of the means by which any
advance is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied
authority for use of Your Account, including Finance Charges and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include Signature Line of Credit, VISA Platinum, VISA Platinum Rewards, VISA Business
Platinum Rewards and VISA Platinum Secured.

Account
Feature Categories

Daily
Periodic Rate

Annual
Percentage Rate

VISA Platinum
VISA Platinum Rewards
VISA Business Platinum Rewards
VISA Platinum Secured
Signature Line of Credit

TRANSACTIONS/ADVANCES. Whenever You request a transaction, We may
require You to prove Your identity. Advances made on Your Account will be
processed according to the instructions You give Us (such as by wire transfer,
direct transfer to Your Credit Union account or by other such means) and You
authorize Us to do this, or We may draw a draft or check made payable to You and
mail it to You. When the amount advanced appears on a subsequent statement,
that will be conclusive evidence of Your advance request unless You notify Us that
You disagree with any such item appearing on Your periodic statement according
to the provision of this Agreement titled "Your Billing Rights: Keep this Document
for Future Use". You understand that whether or not any specific secured advance
request is approved may be determined by how much equity You have or will have
in the shares, certificates and/or Collateral offered as security.
SECURITY. As permitted by law, to secure all transactions under this Agreement
in either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We
may set-off any mutual indebtedness.
You acknowledge that You own any certificates, shares and/or Collateral pledged
as security and that there are no other liens against them other than Ours. You
agree to perform all acts which are necessary to make Our security interest in the
certificates, shares and/or Collateral being pledged enforceable.
For advances under any certificate secured Feature Category, all certificates which
are pledged as Collateral must be renewed until Your outstanding Account balance
is paid in full. Failure to renew any certificates securing any advance will cause Your
entire outstanding Account balance to become immediately due and payable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given
as security under this Agreement or for any other loan You may have with Us will
secure all amounts You owe Us now and in the future if that status is reflected in the
"Truth-In-Lending Disclosure" in any particular Agreement evidencing such debt.

CONSENSUAL LIEN. If You have been issued a VISA Credit Card, You grant
and consent to a lien on Your shares with Us (except for IRA and Keogh
accounts) and any dividends due or to become due to You from Us to the
extent You owe on any unpaid VISA Credit Card balance.
LINE OF CREDIT LIMITS. We will notify You of the Credit Limits given You for
Your Account no later than the time of the first advance. We expect that You will
make repeated advances on Your Account and unless You are in default, Your
Credit Limit will generally be self-replenishing as You make payments on Your
Account. VISA Platinum Secured advances are limited to the amount in Your
secured sub-share account, and will be self-replenishing as You make payments
on Your Account. VISA Platinum Secured Credit Limit increase requests will only
be considered after a six-month period has passed since Your Account was
established and will only be granted in $100.00 increments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances or transactions which caused You to exceed Your Credit
Limit. Even if Your unpaid balance is less than Your Credit Limit, You will have no
credit available during any time that any aspect of Your Account is in default.
Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be mailed only to the Borrower(s) at
the address that We have on file for You. We may refuse to follow any instructions
which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay Your Account at any time without penalty. You may make larger payments
without penalty at any time. Any partial payment or prepayment of Your Account
may not delay Your next scheduled payment. All payments to Us must be in
lawful money of the United States. We may apply each payment to whichever
Feature Category We wish. Payments will be applied first to any Late Charges or
Fees owing, then to the Finance Charge due, then to the outstanding principal
balance. Any unpaid portion of the Finance Charge will be paid by subsequent
payments and will not be added to the principal. You understand that any delay in
the repayment of Your unpaid balance will increase Your Finance Charges and
any acceleration in the payment of Your unpaid balance will decrease Your
Finance Charges.
You may, by separate Agreement, authorize Us to charge the Minimum Monthly
Payment or Payment in Full automatically to Your Share or Share Draft Account.
Minimum Monthly Payments will be 3.00% of Your outstanding Account balance at
the end of each billing cycle, which payment amount will be rounded up to the
nearest dollar, subject to the lesser of $25.00 or Your Account balance.
Minimum Monthly Payment calculations are based on the total outstanding
balance of Your Account as of the end of the billing cycle, including accrued
Finance Charges and other applicable charges. Any previous Minimum Monthly
Payments and/or other fees and charges that remain unpaid will be added to this
amount, and the total is Your Minimum Monthly Payment for that billing cycle.
SKIP PAYMENT. If Your Account is in good standing, We may allow You to skip
certain payments each year. You will be notified in advance on Your Periodic
Statement when a Minimum Monthly Payment due is shown. You may continue to
make regular payments if You wish and You will reduce the amount of Finance
Charges that You will have to pay if You do so. You will not be charged a Late
Charge for those payments skipped. However, Finance Charges will continue to
accrue as set forth in this Agreement. The Periodic Statement sent to You
immediately following the Skip Payment period will indicate the Minimum Monthly
Payment due. At that time, Your Minimum Monthly Payments will return to their
regularly scheduled amounts and due dates as specified in this Agreement. You
may opt out of this program by contacting Us.
LATE CHARGE (EXCEPT VISA). If Your payment is more than 14 days late, You
will be charged $25.00.
OTHER FEES AND CHARGES. You will be charged a skip payment fee
FINANCE CHARGE for each month that you skip a payment on Your Account. The
amount of such fee will be disclosed to you separately.
FINANCE CHARGES (EXCEPT VISA). A Finance Charge will be assessed on
any unpaid principal balance for each Feature Category of Your Account for the
period such balance is outstanding. Balances change each time advances are
made, payments are made or credits given under any Feature Category. The

Page 3 of 6

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

Finance Charge begins to accrue on the date of each advance and there is no
grace period.

agencies, an insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.

HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT VISA). For all
Feature Categories (except VISA), the Finance Charge is determined by
multiplying Your unpaid balance at the close of each day in the billing cycle being
accounted for by the applicable Daily Periodic Rate. The unpaid balance is the
balance each day after payments, credits, and unpaid Finance Charges to that
balance have been subtracted and any new advances, insurance premiums or
other charges have been added to Your unpaid balance. These daily Finance
Charges are then added together and the sum is the amount of the Finance
Charge owed for the Feature Category being accounted for. The total Finance
Charge You owe on Your Account for each billing cycle is the sum of all the
Finance Charges due for all applicable Feature Categories.

SPECIFIC TERMS APPLICABLE TO YOUR VISA PLATINUM,
VISA PLATINUM REWARDS, VISA BUSINESS PLATINUM REWARDS AND
VISA PLATINUM SECURED CREDIT CARDS

PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. If We have issued You a Credit Card, We will mail You
a statement each month in which there is a debit or credit balance or when a
Finance Charge is imposed. We need not send You a statement if We feel Your
Account is uncollectible or if We have started collection proceedings against
You because You defaulted. Each statement is deemed to be a correct statement
of Account unless You establish a billing error pursuant to the Federal
Truth-In-Lending Act.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any
of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon
will be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of Your Account immediately due and payable, without
prior notice or demand.
As required by law, You are hereby notified that a negative credit report reflecting
on Your credit record may be submitted to a credit reporting agency if You fail to
fulfill the terms of Your credit obligations.
COLLECTION COSTS. To the extent permitted by law, You will reimburse Us for
all of Our costs and expenses, including reasonable attorneys' fees incurred in the
course of collecting any amounts owed under this Agreement or for the recovery
of any collateral.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act" and/or "Credit Line Account Advance
Request and Security Agreement" which is delivered together with this Agreement
or provided at a later time is an integrated part of this Agreement and Disclosure.
ENFORCEMENT. We do not lose Our rights under this or any related agreement
if We delay enforcing them. We can accept late payments, partial payments or any
other payment marked "paid in full" without losing any of Our rights under this
Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us in writing promptly if
You move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal
Truth-In-Lending Act. To the extent permitted by law, the right to change the terms
of this Agreement includes, but is not limited to, the right to change the periodic
rate applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance
available through Us and have the premiums added to Your outstanding Account
balance. If You elect to do so, You will be given the necessary disclosures and
documents separately.
CONSENT TO AGREEMENT. You acknowledge a receipt of a copy of this Credit
Line Account Agreement and Disclosure. By signing the Application; by using
Your PINs or other Account access device; by using Your Account or by
authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account Application or other
financial information related to You, at Our request. You also agree that We may,
from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances from Us or another financial
institution.You agree not to use Your Card for illegal transactions including, but not
limited to, advances made for the purpose of gambling and/or wagering where
such practices are in violation of applicable state and/or federal law.
ISSUANCE OF PERSONAL IDENTIFICATION NUMBER. We will issue You,
upon Your request, a Personal Identification Number (PIN) for use with Your Card.
This PIN is confidential and should not be disclosed to anyone. You may use Your
PIN and Your Card to access Your Account and all sums advanced on Your credit
line will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your
Electronic Fund Transfer Agreement may also affect Your rights.
ACCOUNT RESTRICTIONS. For VISA Platinum Secured, We will place and
maintain a hold on funds in a sub-account of Your Share Account ("sub-share
account") in an amount equal to Your approved VISA Platinum Secured credit
limit. This hold (security interest) will remain in effect while Your VISA Platinum
Secured balance remains outstanding, subject to the terms of this agreement. In
order to discontinue a VISA Platinum Secured Account, You must sign a
Share Secured Voluntary Closure form available at any of Our offices. You must
also state the status of any Card(s) issued to You and list any outstanding charges.
All Share Secured Accounts will have the secured funds transferred immediately to
offset any principal balance owing followed by any fees or Finance Charges owed
on the Credit Card. Accounts will be subject to a 15-day waiting period on any
remaining funds in the sub-share account. Following the waiting period, any
remaining funds will be transferred to the main share account and the sub-share
account will be flagged as closed. Any amount outstanding on Your account which
exceeds Your sub-share account balance must be immediately paid in full.
UNAUTHORIZED USE. For individual Accounts, You may be liable for the
unauthorized use of Your Card. You will not be liable for the unauthorized use that
occurs after You notify Us of the loss, theft, or possible unauthorized use by
calling Us during business hours at the telephone number shown in this
Agreement. You may also notify Us of the loss, theft or possible unauthorized use
by writing to Us at the address shown in this Agreement. In any case, Your liability
will not exceed $50.00.
For business Accounts, if We have issued You less than 10 Cards for the use of
Your employees, You may be liable for the unauthorized use of Your Card. You
will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us during business hours at the
telephone number shown in this Agreement. You may also notify Us of the loss,
theft or possible unauthorized use by writing to Us at the address shown in this
Agreement. In any case, Your liability will not exceed $50.00.
For Business Accounts in which We have issued 10 or more Cards for the use of
Your employees, You may be liable for the entire amount of unauthorized use.
HOW TO DETERMINE THE FINANCE CHARGE. The Finance Charge is
determined by multiplying Your separate unpaid principal balances for purchases,
balance transfers and cash advances at the close of each day of the billing cycle
being accounted for by the applicable Daily Periodic Rate after payments, credits
and unpaid Finance Charges, Late Charges and Annual Cardholder Fees have
been subtracted and new advances, insurance premiums or other charges have
been added to Your unpaid balance. These daily Finance Charges are then added
together and the sum is the amount of Finance Charge owed for that billing cycle.
If Your entire new balance is paid off within 25 days from the close of the billing
cycle, there are no Finance Charges on the balance for purchases for the current
billing cycle.
Cash advances and balance transfers (including Convenience Checks and
overdraft protection advances) are always subject to a Finance Charge from the
date they are posted to Your Account and are not subject to the grace period
described herein.
Balance transfer transactions that occur during the period of _______________
through ______________, will accrue finance charges at an introductory Daily
Periodic Rate of ___________% (corresponding to an ANNUAL PERCENTAGE
RATE of __________%) until _____________. Upon the expiration of the
introductory rate period, the entire balance of balance transfers will be subject to
the non-introductory rate described elsewhere in this Agreement.
OVERDRAFT PROTECTION. If You have an overdraft on Your share draft
account with Us, We may advance funds from Your VISA Card Account in the
amount necessary to clear such overdraft (or in such increments as We from time
to time determine), subject to this provision. Whether or not such transfer occurs
will be controlled by this Agreement. Before we advance funds from Your VISA
Account to cover any overdraft, We will first attempt to clear Your share draft up to
six times per calendar month using available funds in your share draft account.
Whether We pay any share draft drawn on Your share account will be governed

Page 4 of 6

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

by the terms and conditions of the Agreements and Disclosures covering Your
share draft account. Only if We are unable to clear Your overdraft using available
funds may Your overdraft be cleared by an advance from Your VISA Card
Account. In any event, You hold Us harmless for any and all liability which might
otherwise arise if the transfer does not occur. Your overdraft protection under this
provision automatically ceases if this Agreement is ever cancelled or terminated.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of
rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives; or (b) the
government-mandated rate in effect for the applicable central processing date.
For transactions that are initiated in a foreign currency, You will be charged
1.00% of the final settlement amount. For transactions occurring in foreign
countries and initiated in U.S. Dollars, You will be charged 0.80% of the final
settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify the merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a credit slip which will be posted to
Your Account. If Your credits and payments exceed what You owe Us, We will
hold and apply this credit against future purchases and cash advances, or if it is
$1.00 or more, refund it on Your written request or automatically deposit it to Your
Share Account after 60 days.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using the Card contains terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
LATE CHARGE. If Your scheduled Minimum Monthly Payment is more than
14 days late, You will be charged a fee. Except for VISA Business Platinum,
the amount of such fee will equal the lesser of: (a) the amount of the
minimum payment due; or (b) $25.00. For VISA Business Platinum, the fee will
equal $25.00.
ANNUAL CARDHOLDER FEE. You will be charged a non-refundable, annual
Cardholder fee of $30.00 for Your participation in the VISA Platinum Secured
program. You will be charged this annual fee the first day of the month following
each annual renewal date. You agree to pay such a fee whether or not You use
the Account at any time during the year. After the first year, You will receive a
notice containing renewal instructions at least 30 days before We post the fee to
Your Account. Payment of this fee does not guarantee that Your Account will not
be terminated.

TERMS APPLICABLE TO ALL FEATURE CATEGORIES
OWNERSHIP. All Account access devices remain Our property and may be
cancelled by Us at any time without notice. You agree to surrender such Account
access devices and to discontinue their use immediately upon Our request.
TERMINATION. Either You or We may cancel Your Account, at any time, whether
or not You are in default. You will, in any case, remain liable to pay any unpaid
balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of California except to the extent that such laws are inconsistent with
controlling federal law.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give us the following information:

.
.
.

You must contact Us:

.
.

BALANCE TRANSFER FEE. You will be charged a fee for each such transfer.
The fee is a FINANCE CHARGE and will be an amount equal to the greater of
$5.00 or 3.00% of the amount of the advance.

Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if
You want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay
the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1)

Within 30 days of receiving Your letter, We must tell You that We received
explain to You why We believe the bill is correct.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

2)
OVER-THE-CREDIT LIMIT FEE. If You have affirmatively consented to allow Us
to pay a transaction that would exceed Your Credit Limit and We have
acknowledged Your consent as required by applicable law, subject to any
limitations imposed by applicable law, You will be charged a fee for each billing
cycle during which You exceed Your Credit Limit by more than 10.00%. Except for
VISA Business Platinum Rewards, the fee will be an amount equal to the lesser of:
(a) $25.00; or (b) the amount by which You have exceeded Your Credit Limit. For
VISA Business Platinum Rewards, the fee will be an amount equal to $25.00 for
each day that You exceed Your Credit Limit by more than 10.00%.

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

While We investigate whether or not there has been an error:

.
.
.
.

We cannot try to collect the amount in question, or report You as delinquent
on that amount.
The charge in question may remain on Your statement, and We may
continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible
for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:
REFUSAL TO HONOR CONVENIENCE CHECKS OR VISA CREDIT CARD(S).
We are not liable for the refusal or inability of merchants, financial institutions and
others to accept Convenience Checks or Credit Card(s), or electronic terminals to
honor Convenience Checks or Credit Card(s) or complete a Credit Card
withdrawal, or for their retention of Convenience Checks or Credit Card(s).
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We may
not accept Your Convenience Checks if: (1) by paying a Convenience Check,
You would go over Your Credit Limit; (2) Your Convenience Check or
payment check is postdated; (3) Your Cards or Convenience Checks have been
reported lost or stolen; (4) Your Account has been cancelled or has expired. If a
postdated Convenience Check is paid and as a result any other Convenience
Check is returned or not paid, We are not responsible for any resulting loss
or liability.
LOST OR STOLEN CARDS. To report a lost or stolen Card, Account Number,
PIN or any combination thereof, You will call Us at (760) 371-7000 or (800)
433-9727. You may call 24 hours a day seven days a week. To initiate a lost or
stolen Card report, when you are outside of the United State, You can visit any
financial institution that offers VISA card services. You may also write Us at
AltaOne Federal Credit Union, P.O. Box 1209, Ridgecrest, CA 93556.
LOST OR STOLEN CONVENIENCE CHECKS. To report a lost or stolen
Convenience Check, You will call Us during business hours at (760) 371-7000 or
(800) 437-9727. You may also write Us at AltaOne Federal Credit Union, P.O. Box
1209, Ridgecrest, CA 93556.

Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

.
.

If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may
then report You as delinquent if You do not pay the amount We think
You owe.

If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do so,
We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom we
reported You as delinquent, and We must let those organizations know when the
matter has been settled between Us. If We do not follow all of the rules above,
You do not have to pay the first $50.00 of the amount You question even if Your
bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:

Page 5 of 6

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

1)

2)

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more
than $50.00. (Note: Neither of these are necessary if Your purchase was
based on an advertisement We mailed to You, or if We own the company that
sold You the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.

Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

3)

You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point, if
We think You owe an amount and You do not pay, We may report You as delinquent.

Page 6 of 6

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

701 South China Lake Boulevard
P. O. Box 1209
Ridgecrest, CA 93556-1209
(760) 371-7000 or (800) 433-9727
FAX (760) 371-7079
Website: www.altaone.org

PRICING INFORMATION ADDENDUM
CREDIT CARD ACCOUNT
AGREEMENT AND DISCLOSURE

THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR VISA
PLATINUM, VISA PLATINUM REWARDS, VISA BUSINESS PLATINUM REWARDS AND
VISA PLATINUM SECURED CREDIT CARDS. PLEASE BE CERTAIN TO READ THIS
ADDENDUM CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

VISA Platinum: 14.99%
VISA Platinum Rewards:

- 17.99% based on Your creditworthiness.

10.99%

VISA Business Platinum Rewards: 10.99%
VISA Platinum Secured: 17.99%
APR For Balance Transfers VISA Platinum: 0.00% introductory APR until December 31, 2016 (for transfers made by
February 29, 2016).
After that, Your APR will be 14.99% - 17.99% based on Your creditworthiness.
VISA Platinum Rewards: 0.00% Introductory APR until December 31, 2016 (for transfers made
by February 29, 2016).
After that, Your APR will be 10.99%.
VISA Business Platinum Rewards: 0.00% introductory APR until December 31, 2016 (for
transfers made by February 29, 2016).
After that, Your APR will be 10.99%.
VISA Platinum Secured: 0.00% Introductory APR until December 31, 2016 (for transfers made
by February 29, 2016).
After that, Your APR will be 17.99%.
APR For Cash Advances

VISA Platinum: 14.99% - 17.99% based on Your creditworthiness.
VISA Platinum Rewards: 10.99%.
VISA Business Platinum Rewards: 10.99%.
VISA Platinum Secured: 17.99%.

Paying Interest

For VISA, We will not charge You interest on purchases if You pay Your entire balance owed
each month within 25 days of Your statement closing date. For all Feature Categories, We
will begin charging interest on cash advances and balance transfers on the transaction date.

Fees
Annual Fee

For VISA Platinum Secured, $30.00

Transaction Fees

.
.

Balance Transfer
Foreign Transaction

3.00% of each transfer ($5.00 minimum)
1.00% of each U.S. Dollar transaction that occurs in a foreign country
0.80% of each foreign currency transaction in U.S. dollars
SEE PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

Page 1 of 2

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

Fees (continued)
Penalty Fees

.

Over-The-Credit Limit

.

Late Payment

Except VISA Business Platinum Rewards, up to $25.00
For VISA Business Platinum Rewards, $25.00 per day
Except VISA Business Platinum Rewards, up to $25.00
For VISA Business Platinum Rewards, $25.00

How We Will Calculate Your Balance: We use a method called "daily balance." See Your Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
SEE PAGE 1 for more important information about Your Account

HOW TO DETERMINE THE FINANCE CHARGE. The Finance Charge is determined by multiplying Your separate unpaid principal balances for purchases, balance
transfers and cash advances at the close of each day of the billing cycle being accounted for by the applicable Daily Periodic Rate after payments, credits and unpaid
Finance Charges, Late Charges and Annual Cardholder Fees have been subtracted and new advances, insurance premiums or other charges have been added to Your
unpaid balance. These daily Finance Charges are then added together and the sum is the amount of Finance Charge owed for that billing cycle.
If Your entire new balance is paid off within 25 days from the close of the billing cycle, there are no Finance Charges on the balance for purchases for the current billing
cycle.
Cash advances and balance transfers (including Convenience Checks and overdraft protection advances) are always subject to a Finance Charge from the date they are
posted to Your Account and are not subject to the grace period described herein.
For all Credit Union cardholders, Purchase transactions are subject to a Daily Periodic Rate as follows.
Your Daily Periodic Rate for Purchase transactions for VISA Platinum is 0.041068% - 0.049288% (corresponding to an ANNUAL PERCENTAGE RATE of 14.99% 17.99%), depending on Your creditworthiness.
Your Daily Periodic Rate for Purchase transactions for VISA Platinum Rewards is 0.0301096% (corresponding to an ANNUAL PERCENTAGE RATE of 10.99%).
Your Daily Periodic Rate for Purchase transactions for VISA Business Platinum Rewards is 0.0301096% (corresponding to an ANNUAL PERCENTAGE RATE of
10.99%).
Your Daily Periodic Rate for Purchase transactions for VISA Platinum Secured is 0.049288% (corresponding to an ANNUAL PERCENTAGE RATE of 17.99%).
For all cardholders, Balance Transfer transactions, made by February 29, 2016 are subject to an Introductory Daily Periodic Rate of 0.000000% (corresponding ANNUAL
PERCENTAGE RATE 0.00%) until December 31, 2016. Upon the expiration of the Introductory Rate period the Daily Periodic Rate applicable to Your entire balance of
Balance Transfers existing at that time and in the future will immediately increase to the non-introductory Daily Periodic Rate disclosed in this Agreement.
Following the expiration of the Introductory Rate period Your Daily Periodic Rate for VISA Platinum will be 0.041068% - 0.049288% (corresponding to an ANNUAL
PERCENTAGE RATE of 14.99% - 17.99%), depending on Your creditworthiness.
Following the expiration of the Introductory Rate period Your Daily Periodic Rate for VISA Platinum Rewards will be 0.0301096% (corresponding to an ANNUAL
PERCENTAGE RATE of 10.99%).
Following the expiration of the Introductory Rate period Your Daily Periodic Rate for VISA Business Platinum Rewards will be 0.0301096% (corresponding to an ANNUAL
PERCENTAGE RATE of 10.99%).
Following the expiration of the Introductory Rate period Your Daily Periodic Rate for VISA Platinum Secured will be 0.049288% (corresponding to an ANNUAL
PERCENTAGE RATE of 17.99%).
For all Credit Union cardholders, Cash Advance transactions are subject to a Daily Periodic Rate as follows.
Your Daily Periodic Rate for Cash Advance transactions for VISA Platinum is 0.041068% - 0.049288% (corresponding to an ANNUAL PERCENTAGE RATE of 14.99% 17.99%), depending on Your creditworthiness.
Your Daily Periodic Rate for Cash Advance transactions for VISA Platinum Rewards is 0.0301096% (corresponding to an ANNUAL PERCENTAGE RATE of 10.99%).
Your Daily Periodic Rate for Cash Advance transactions for VISA Business Platinum Rewards is 0.0301096% (corresponding to an ANNUAL PERCENTAGE RATE of
10.99%).
Your Daily Periodic Rate for Cash Advance transactions for VISA Platinum Secured is 0.049288% (corresponding to an ANNUAL PERCENTAGE RATE of 17.99%).

Copyright Oak Tree Business Systems, Inc., 2013-2015. All Rights Reserved.

Page 2 of 2

OTBS 016 FRB_WEB ALTA (12/15)
Rev. (12/15)

